OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
COMMUNITY ACTION
PROGRAM ACTIVITIES
IMPLEMENTED BY
INTERNATIONAL RELIEF AND
DEVELOPMENT
AUDIT REPORT NO. E-267-12-001-P
NOVEMBER 15, 2011




BAGHDAD, IRAQ
Office of Inspector General


November 15, 2011

MEMORANDUM

TO:                  USAID/Iraq Mission Director, Alex Dickie

FROM:                Office of Inspector General/Iraq, Director, Darren Roman /s/

SUBJECT:             Audit of USAID/Iraq’s Community Action Program Activities Implemented by
                     International Relief and Development (Report No. E-267-12-001-P)

This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in Appendix II.

The report contains ten recommendations to improve Community Action Program activities
implemented by International Relief and Development. On the basis of your written comments
in response to the draft report, we consider management decisions have been reached on
Recommendations 7, 8, 9, and 10. For the remaining six recommendations, please provide us
within 30 days additional information related to actions planned or taken to implement
Recommendations 1, 2, 3, 4, 5, and 6. Please also provide the Audit Performance and
Compliance Division with evidence of final action upon completion of the planned corrective
actions for the four recommendations with management decisions.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
USAID/Iraq
Box 0047, Unit 6060
DPO, AE 09870-0047
www.usaid.gov/oig
CONTENTS
Summary of Results ..................................................................................................... 1

Audit Findings ............................................................................................................... 5

     Projects Did Not Sufficiently Target Priorities That
     Communities Set ....................................................................................................... 5

     Implementer Overstated the Number of Direct Beneficiaries ................................... 11

     Some Projects Require Follow-Up........................................................................... 12

     Performance Monitoring Was Not Sufficient ............................................................ 14

     Cost-Sharing Requirements Were Not Clear ........................................................... 16

Evaluation of Management Comments...................................................................... 18

Appendix I—Scope and Methodology ....................................................................... 23

Appendix II—Management Comments ...................................................................... 25

Appendix III—Prioritized Needs of 36 Sampled
Neighborhoods and Completed Projects That Met Those Needs ............................ 30

Appendix IV—Distribution of Completed Projects
Among Neighborhoods by Number and Value ......................................................... 31

Appendix V—Results of Site Visits to 51 Sampled Projects .................................... 32

Appendix VI—Analysis of Eight Indicators Used by
International Relief and Development ....................................................................... 40


Abbreviations
The following abbreviations appear in this report:
ADS            Automated Directives System
AOTR           agreement officer’s technical representative
CAG            community action group
IRD            International Relief and Development
OIG            Office of Inspector General
PMP            performance management plan
SUMMARY OF RESULTS
USAID/Iraq’s Community Action Program, begun in 2003 and now in its third phase, works at a
grassroots level to encourage citizen involvement and to provide the skills to mobilize resources
to solve community development needs. To accomplish this purpose, the program has
facilitated the creation and training of community action groups that identify and prioritize
community needs, mobilize resources, and monitor project implementation. The third phase of
the program is implemented by four partners: International Relief and Development; Mercy
Corps; Cooperative Housing Foundation; and ACDI/VOCA. Our audit reviewed the program
activities implemented by International Relief and Development (IRD).

The activities implemented by IRD have three objectives:

1. Improve the capacity of communities to better identify their needs, articulate their role in
   community development, and mobilize their resources.

2. Improve the capacity of local government to meet the articulated needs of the community.

3. Assist civilian victims of conflict.1

To achieve these objectives, USAID awarded a $39.1 million cooperative agreement in
September 2008 to IRD for the implementation of Community Action Program activities. These
activities were intended to assist 121 neighborhoods in the Baghdad area. As of September
2010, USAID/Iraq had increased the total estimated costs to $91 million, obligations to $74
million,2 extended the period of performance to September 2012, and expended $35 million. A
component of the program was cost-sharing requirements of $29.5 million for IRD, along with
community and Government of Iraq contributions of $5.2 million toward implemented projects.

IRD has encountered significant risk in implementing this program. For example, IRD quarterly
progress reports distinguished neighborhoods according to low, medium, or high risk that
incorporated the current security threats and environment. IRD’s end-of-Year 2 progress report
rated 25 neighborhoods as high risk. According to information provided by IRD, the dangerous
security environment negatively impacted field operations. To illustrate, IRD reported that
several local council officials in Baghdad with whom IRD worked closely were assassinated.

The Office of Inspector General (OIG) conducted this audit to determine whether activities
implemented by IRD under the Community Action Program were achieving their main goals of
communities better articulating their needs and mobilizing their resources to solve common
problems.

The audit determined that IRD’s activities under USAID/Iraq’s Community Action Program
partially achieved their goals. IRD effectively formed community action groups and developed
initial community action plans, completed projects, and used a process for project development.
However, the principal hindrances to the achievement of IRD’s goals were that completed

1
  Our audit did not cover this activity, commonly called the Marla Ruzicka Iraqi War Victims Fund. We
issued an audit report on this activity in April 2008 (Audit Report No. E-267-08-002-P, April 3, 2008).
2
  According to USAID/Iraq records, $8.2 million of this amount was obligated for Marla Ruzicka activities.




                                                                                                        1
projects did not target the identified, prioritized needs of the communities and that USAID/Iraq’s
decision to accelerate the spending of program funds had negative consequences. These
consequences were a significant overreliance on supply-type projects (such as supplying
student desks, office equipment, and computers to schools; toys to kindergartens; or medical
supplies to health clinics), cancelled projects, revisions to many community action plans, and a
concentration of projects in some neighborhoods. According to the USAID/Iraq cooperative
agreement with IRD, ―the core of the community action program is that the communities select,
prioritize, and contribute to the projects implemented in their areas. This process of community-
driven development leading to specific projects formed the genetic code of the community
action program from the beginning.‖ Simply put, the program could have been more effective.

IRD’s activities under the Community Action Program did produce several accomplishments,
including creating community action groups and completing projects.

   IRD created community action groups for Baghdad neighborhoods. IRD reported that it had
   formed 117 community action groups as of November 2010. In addition, IRD community
   mobilizers held a 3-day workshop in each neighborhood to assess community needs and
   develop the community’s action plan. The workshops were open to the public and included
   community action group members, community residents, and government officials. The
   workshops also included a training component.

   Site visits to a sample of 51 projects showed that all 51 projects were completed, most met
   user expectations, and overall the projects contributed to improving the lives of community
   citizens.

   IRD’s project development process included assessments to ensure that projects were
   feasible, project design and estimated costs were documented and approved by IRD, letters
   of support and required cost-sharing contributions were documented, bids were reviewed by
   an IRD committee, project sites were visited to ensure that work was completed, and project
   completion was also documented by the beneficiary.

Despite these accomplishments, the audit identified the following problems requiring
management attention:

   IRD’s completed projects often did not target the prioritized needs of the neighborhoods.
   Furthermore, IRD officials accelerated spending of program funds and completing projects
   in order to focus on quick results. This produced four direct effects: an over-reliance on
   supply-type projects, cancelled projects, revisions to many community action plans, and a
   concentration of projects within some neighborhoods. In particular, IRD significantly relied
   on the use of small supply-type projects to increase the number of completed projects. As
   of November 2010, IRD implemented 571 projects of which 310 (54 percent) were
   supply-type projects and 356 (62 percent) were less than $25,000. This is a significantly
   higher use of small supply-type projects than the other three USAID implementers for the
   community action program. IRD’s concentration on small supply-type projects was partially
   attributable to its organizationwide negotiated indirect cost rate. IRD had a financial interest
   to program its projects to not exceed $25,000 because it can only collect its overhead rate
   on the first $25,000 of an individual subaward. Supply-type projects most easily fit within
   this parameter. Supply-type projects are a legitimate community action program option.
   Nevertheless, a clear over-reliance on supply-type projects reduced program impact and
   sustainability. (See pages 5 to 10.)



                                                                                                 2
   IRD overstated its direct beneficiaries (page 11). For $11.8 million spent on projects, IRD
   reported 2.4 million direct beneficiaries—in effect, close to half of Baghdad’s population of
   5.8 million. One example was 72,000 direct beneficiaries reported from the supply of
   vaccination and office equipment valued at $785 to a health center for allergic diseases.
   Another example was 208,000 direct beneficiaries reported from a project valued at $53,000
   for the construction of four rooms and bathrooms at a health center.

   OIG site visits to a sample of 51 completed projects identified several projects that require
   follow-up by USAID/Iraq and IRD to resolve problems related to safety, quality of work, and
   potential overcharges (page 12).

   Since March 2009, USAID/Iraq has not updated and approved a performance management
   plan (PMP) that reflects results and ongoing changes in program direction (page 14).
   Instead, USAID/Iraq has relied on multiple documents to fulfill this role of program
   monitoring. However, these documents often did not agree in the wording of indicators,
   indicators included, and reported results. Moreover, the documents included information
   that was inherently incorrect, such as baselines greater than or equal to targets.

   USAID/Iraq requirements for cost sharing under the cooperative agreement and later
   modifications were not sufficiently clear to allow effective monitoring of cost-sharing
   requirements (page 16). Several terms were not precisely defined, including the base
   against which cost sharing was to be applied.

To address the issues outlined above, the audit makes ten recommendations to the mission:

1. Require IRD to program the remaining projects to target community-identified needs and
   report quarterly on its progress (page 10).

2. Require IRD to include in its periodic performance reports a breakdown of the number of
   projects (1) by type, including supply-type, and (2) by neighborhood, explaining high
   concentrations on either measure (page 10).

3. Issue guidelines limiting the percentage of supply-type projects that IRD can implement
   (page 10).

4. Require IRD to include in its periodic performance reports a list of cancelled projects and
   revised community action plans (page 10).

5. Provide guidance to IRD on how to calculate the number of direct beneficiaries, and
   establish written procedures for reviewing and assessing reported results for direct
   beneficiaries (page 12).

6. Determine the allowability of and collect, as appropriate, $25,560 in questioned, ineligible
   costs (page 14).

7. Require IRD to resolve the safety and quality problems noted in this finding and report its
   corrective actions to the mission in writing (page 14).

8. Update and approve, in writing, a PMP that incorporates Automated Directives System



                                                                                              3
   requirements and includes indicators that measure discrete aspects of performance
   (page 16).

9. Require IRD to submit work plans and progress reports that conform to indicators in the
   updated, approved PMP and the cooperative agreement, as applicable (page 16).

10. Clarify requirements for calculating cost-sharing contributions for the period of performance
    covered by Modification 11 to the cooperative agreement (page 17).

Detailed findings follow. Our evaluation of management comments is on page 18. Appendix I
presents the audit scope and methodology, and Appendix II presents the full text of
management comments.




                                                                                               4
AUDIT FINDINGS
Projects Did Not Sufficiently Target
Priorities That Communities Set
Both mission and implementer officials emphasized that the Community Action Program is
foremost a democracy effort—not a small-scale project implementation program. The projects
are a tool for achieving community development and citizen participation in the implementation
of community-prioritized development projects. According to the USAID/Iraq cooperative
agreement with IRD, ―the core of the community action program is that the communities select,
prioritize, and contribute to the projects implemented in their areas. This process of community-
driven development leading to specific projects formed the genetic code of the community
action program from the beginning.‖

IRD’s role is to facilitate group formation and planning. According to IRD officials, IRD created
community action groups for all but three neighborhoods in Baghdad where security or
neighborhood interest was lacking. The formation of the groups, the development of their
community action plans, and the revision of plans included the following steps:

   IRD community mobilizing teams approach key neighborhood councils in each
   neighborhood to introduce the program.

   Neighborhood councils nominate two of their members to be community action group
   members. IRD organizes a town hall meeting for the appointment of other community action
   group members, such as neighborhood leaders.

   At the town hall meeting, which is open to all community members, IRD community
   mobilizers introduce the program to attendees, who nominate potential members.
   Community members vote on these nominees.

   The neighborhood councils and IRD agree to a memorandum of understanding.

   IRD community mobilizers organize a 3-day workshop to assess community needs and
   develop the community’s action plan. The workshop is open to the public and includes
   community action group members, community residents, and government officials. IRD
   community mobilizers facilitate discussion to (1) identify needs and alternative solutions to
   community problems, (2) assess funding sources, and (3) assess feasibility. The workshop
   results in a community action plan. According to IRD, the plan is not just a list of priorities
   and projects, but a record of the decisions by planning participants that identifies the
   actions, resources, and responsible parties necessary to achieve progress on community
   priorities. The community action plan serves as the basis for specific IRD and Government
   of Iraq project proposals.

   To revise the plan, IRD must hold and document a 1-day workshop for community action
   group members and document approval by a majority of the community action group.

Using this process, IRD had developed community action plans for 117 neighborhoods as of
November 2010, according to IRD officials.



                                                                                                5
To determine whether IRD’s completed projects targeted the needs identified and prioritized by
communities, auditors reviewed a subset of plans and projects. Specifically, for a sample of 36
community action groups, we compared community action plans with IRD’s completed projects
for each neighborhood. The community action plans identified six common needs: (1) drinking
water, (2) health care, (3) education, (4) sewerage, (5) electricity, and (6) roads repairs. In
response, IRD programmed 195 projects valued at $7.2 million and reportedly benefitting 1.1
million residents in the sampled neighborhoods. Project costs ranged from $785 to $206,858.
These projects also received community contributions of $96,632 and Government of Iraq
contributions of $15.5 million.

Of the 195 projects, IRD:

   Completed 146 projects (like the one pictured below) valued at $4.1 million.
   Cancelled 32 projects with estimated costs of $1.7 million.
   Identified 17 projects with estimated costs of $1.3 million.




            IRD’s subcontractors built these classrooms at a primary school in
            Baghdad. (Photo by Combined Consultancy Company for Legal and
            Economic Investment Consultation, LLC, of Karradah, Baghdad, under
            contract with OIG, April 2011)

However, of the 146 completed projects, 50 (34 percent) did not match any needs identified by
the neighborhoods in their community action plans. In addition, 45 (31 percent) did not match
the first or second priorities identified by the communities. (Appendix III presents a comparison
of completed projects with community priorities.) Furthermore, of the 36 community action
plans developed with IRD assistance, IRD’s completed projects did not target the first or second
prioritized needs in 17 cases. This low rate of project responsiveness meant that 17 of the 36
sampled community action groups (47 percent) did not get what they most wanted.

For example, in the neighborhood of Al-Jamhouriya, IRD facilitated a community action plan
dated May 14, 2009. This plan prioritized community needs of employment, sewerage,
electricity, garbage collection, and roads. According to IRD records, a revised community action
plan was developed, but it was undated and did not document key planning aspects such as the
participation of community action group members. IRD projects in this community consisted of


                                                                                               6
one cancelled road project and three school-supply projects that did not target community
needs.

Similarly, in the Qadesiya neighborhood, IRD facilitated a community action plan dated
March 25, 2009. This plan prioritized community needs of employment, sewerage, roads,
health, and public parks. According to IRD records, a revised community action plan was later
developed, but it was undated and did not document key planning aspects such as the
participation of members of community action groups. IRD subsequently facilitated another
revised community action plan dated July 19, 2010. This July 2010 plan prioritized education,
public parks, community services, and services for widows and orphans. IRD completed three
school supply projects. However, all of these projects were initiated prior to the July 2010 plan,
and none targeted the needs outlined in the original March 2009 community action plan.

In the Mansour neighborhood, IRD facilitated a community action plan dated May 20, 2009.
This plan identified employment, housing, electricity, communications infrastructure, sewerage,
and education as priorities. IRD completed one school-supply project, the sixth priority of the
May 2009 community action plan.

Although needs were identified in these communities, IRD instead completed projects that did
not target the needs identified by the communities. The lack of alignment between community
action plans and completed projects resulted from several factors, foremost among them
USAID’s decision to accelerate spending of program funds and completion of projects.

On November 15, 2009, USAID/Iraq issued a Notice of Material Noncompliance to IRD for (1)
vacant key personnel positions and (2) IRD’s lack of programmatic progress as evidenced by
the unacceptably low number of successfully implemented projects (12 of 140 or 8 percent of
Year 1 targets). USAID/Iraq’s notice further indicated that IRD had expended only $2.4 million
of the obligated amount of $39.1 million. As part of the notice, USAID/Iraq directed IRD to
implement 140 projects by the end of the calendar year.

In our opinion, the USAID/Iraq notice did not adequately recognize the stages of program
implementation. Both mission and implementer officials emphasized that this program is
foremost a democracy effort, not a small-scale project implementation program. The projects
are a tool for achieving community development and citizen participation, but are not the
ultimate purpose of the program.

During the first year of the program, IRD focused on the formation of community action
groups—the natural progression of program implementation. According to a USAID/Iraq-funded
evaluation (May 2010) of the program, much of the time during the first year of the project was
devoted to community action group formation and training on the community action planning
process, leading to the development of community action groups and their plans in 113 3
neighborhoods. Even so, this accomplishment diverted the program focus from implementing
projects.

Some delays in implementing projects occurred for reasons outside IRD’s control—such as lack
of security, the slow pace of obtaining government approvals, and some ineffective working
relationships between IRD and local governments. However, other reasons were within IRD’s


3
    The 113 neighborhoods are according to IRD’s quarterly report of September 30, 2009.



                                                                                                7
control. For example, during the first year of implementation, IRD had difficulty filling key
positions, including those of the chief of party and deputy chief of party.

Not having completed many projects, the program did not require a large expenditure of funds—
a key contention of the USAID notice. Nevertheless, given the demands of the USAID notice,
IRD officials accelerated spending of program funds and completion of projects to focus on
quick results. This produced four direct effects: a significant overreliance on supply-type
projects, cancelled projects, revisions to many community action plans, and a concentration of
projects in some neighborhoods.

Overreliance on Supply-Type Projects. IRD significantly relied on low-budget, small supply-
type projects to increase the number of completed projects. As of November 2010, IRD had
implemented 571 projects, of which 356 (62 percent) were valued at less than $25,000 and 310
(54 percent) were supply-type projects. These results contrasted with those of other USAID
implementers for the Community Action Program (Tables 1 and 2).

      Table 1. Projects With Costs Below $25,000 as a Share of Each Implementer’s
                    Activities Under the Community Action Program

             IRD        Cooperative Housing        Mercy Corps         ACDI-VOCA
                            Foundation
             62%               9%                       24%                 7%


        Table 2. Supply-Type Projects as a Share of Each Implementer’s Activities
                         Under the Community Action Program

             IRD        Cooperative Housing        Mercy Corps         ACDI-VOCA
                            Foundation
             54%               19%                      26%                16%


In addition, the average size of IRD’s completed projects was significantly less than that of the
other USAID implementers for the Community Action Program (Table 3).

                Table 3. Average Project Cost for Each Implementer of the
                              Community Action Program

             IRD        Cooperative Housing        Mercy Corps         ACDI-VOCA
                            Foundation
           $31,761           $56,587                  $62,197             $72,833

IRD’s concentration on small, supply-type projects was also partially attributable to the
organization’s negotiated indirect cost rate. Specifically, IRD had a financial interest in
programming its projects not to exceed $25,000 because it can collect its indirect overhead rate




                                                                                               8
on only the first $25,000 of an individual subaward.4 Supply-type projects fit most easily within
this parameter. Although the average cost of all 571 IRD projects was $31,761, the average
cost of its 310 supply-type projects was less than half that amount—$13,296.

An examination of completed school projects showed the effect of the overreliance on supply-
type projects. We commissioned an Iraqi consulting firm to visit a sample of 51 completed
projects to verify several factors including existence, beneficiaries, reasonableness of costs, and
impact. The sample included 31 school projects, of which 13 were for the provision of school
supplies. School administrators in general expressed their disappointment that (1) IRD had not
addressed more compelling needs, such as building more classrooms or rehabilitating existing
schools, (2) IRD had not consulted the school administrators about their priority needs, and (3)
in some cases, the schools had to store supplies because of inadequate classroom space.

The cooperative agreement with IRD established an initial program target of 750 completed
community infrastructure and essential service projects. In March 2009, USAID approved a
57 percent reduction in the target for projects, from 750 to 325. In proposing the reduction, IRD
stated that the original target of 750 projects would result in a large number of small, supply-
type projects. Although USAID/Iraq based approval of the revised target for completed projects
on the assumption that IRD would implement more infrastructure projects, IRD did not fulfill that
requirement, as demonstrated by the number of small, supply-type projects.

Cancelled Projects. Overall, IRD cancelled 79 projects with estimated costs of $4.4 million. Of
these 79 cancelled projects, only 10 (13 percent) were supply-type projects. In contrast, IRD
project data of November 2010 showed the share of completed supply-type projects was about
54 percent.

Among the 195 projects programmed for our sample of 36 community action groups, IRD
cancelled 32 projects. Of the 32 cancelled projects, 13 were programmed for school
construction and rehabilitation; 11 for road construction or repair; and 8 for the rehabilitation of
water networks, installation of electric transformers, establishment of public gardens, and
installation of textile sewing machines for widows. Just 1 of these 32 cancelled projects was
programmed for the provision of supplies.

Revised Plans. IRD revised many of the community action plans, often without adequately
documenting the basis for the change in the plan or the participation of members of community
action groups. For our sample of 36 community action groups, all of the original community
action plans were documented. These documented plans included separate sections covering
the following topics:

    Neighborhood and populations.
    Names of community action group members and local government representatives.
    Discussion of determination of needs and solutions among neighborhood citizens.
    Community needs and consensus on priorities and solutions.
    Needs analysis and proposed solutions.
    Prioritizing solutions through visibility study analysis.

4
  USAID approved indirect rates through a Negotiated Indirect Cost Rate Agreement under the provisions
of Office of Management and Budget Circular No. A–122, ―Cost Principals for Non-Profit Organizations.‖
According to Section D.3.f of the circular, not applying the indirect rate to costs above $25,000 is
standard.



                                                                                                    9
   Action plan including possible solutions to prioritized needs.
   Monitoring plan including possible sources of finance.

However, IRD revised 24 of the 36 community action plans produced by the groups in our
sample. Eight plans were revised twice, resulting in 32 revised community action plans.
Furthermore, 12 of the 32 revised community action plans were not adequately documented—
particularly for the key element of citizen participation. In eight cases, the IRD revised plans
were also undated.

Concentration of Projects in Some Neighborhoods. IRD concentrated projects in some
neighborhoods. For example, of the 146 completed projects with a value of $4.1 million in our
sample, IRD concentrated 29 projects with a value of $1.3 million in two neighborhoods.
(Appendix IV shows the number and value of projects by neighborhood.) As a result, about 31
percent of the value of all IRD completed projects was programmed to benefit just 2 of 36
neighborhoods—Baquba Center and Khan Dhari, both identified as high-risk areas according to
IRD.

Ultimately, IRD has only partially achieved its main goals of communities better articulating their
needs and mobilizing their resources to solve common problems. Modification 11 to
USAID/Iraq’s cooperative agreement with IRD stated that the Community Action Program is
unique in encouraging communities to choose the projects and activities that will benefit
residents most. USAID/Iraq’s program evaluation (May 2010) underscored this emphasis.
Specifically, the evaluation stated that project ―identification processes which are not connected
to the reality of project identification and selection by community action group members are only
practice sessions.‖ IRD can better target projects to communities’ identified needs.

Supply-type projects (such as supplying student desks, office equipment, and computers to
schools; toys to kindergartens; and medical supplies to health clinics) are a legitimate
Community Action Program option. Nevertheless, a clear overreliance on supply-type projects
reduced program impact and sustainability. Substituting small, supply-type projects for those
with longer-term impact, such as infrastructure rehabilitation projects, turns much of the program
into an acquisition agent for community supplies. Revising plans without documented
community input and cancelling projects that communities prioritized may lead to lack of
community participation and support. We make the following recommendations.

   Recommendation 1. We recommend that USAID/Iraq require International Relief and
   Development to program the remaining projects to target community-identified needs
   and report quarterly on its progress.

   Recommendation 2. We recommend that USAID/Iraq require International Relief and
   Development to include in its periodic performance reports a breakdown of the number
   of projects (1) by type, including supply-type, and (2) by neighborhood, explaining high
   concentrations on either measure.

   Recommendation 3. We recommend that USAID/Iraq issue guidelines limiting the
   percentage of supply-type projects that International Relief and Development can
   implement.

   Recommendation 4. We recommend that USAID/Iraq require International Relief and
   Development to include in its periodic performance reports a list of cancelled projects
   and a list of revised community action plans.


                                                                                                10
Implementer Overstated the
Number of Direct Beneficiaries
The Government Accountability Office’s Standards for Internal Controls in the Federal
Government5 requires federal agencies to establish control activities for achieving effective
results. These activities include managers comparing actual performance with planned or
expected results and analyzing significant differences. In addition, USAID’s Automated
Directives System (ADS) 203.3.5.1 requires performance data to be sufficiently precise to
present a fair picture of performance and enable management decision making at the
appropriate levels.

The USAID/Iraq cooperative agreement with IRD established a target of 1 million direct
beneficiaries. IRD’s third year work plan summarized program results through November 2010.
As of November 2010, IRD reported that it had completed 439 projects costing $11.8 million and
directly benefiting 2,386,522 people. Direct beneficiaries counted included the following:

      72,000 beneficiaries from the supply of vaccination and office equipment valued at $785 to a
      health center for allergic diseases in Jame’a neighborhood.

      380,000 beneficiaries from a project valued at $25,115 for the construction of a fire station in
      Sadr City.

      312,127 beneficiaries from a project valued at $147,000 for the installation of water pumps
      in Baquba Center.

      208,000 beneficiaries from a project valued at $53,000 for the construction of four rooms
      and bathrooms at a health center in Al Nasr Welsalam.

      171,600 beneficiaries from a project valued at $44,210 for the provision of medical supplies
      and a learning center at a hospital in Sadr City.

      109,908 beneficiaries from the supply of medical equipment valued at $96,750 to a medical
      unit in Sadr City.

      93,600 beneficiaries from the rehabilitation of a health center valued at $60,178 in Ur
      neighborhood.

      92,000 beneficiaries from spreading 3 kilometers of road subbase valued at $82,875 in
      Baquba Center.

      50,000 beneficiaries from the construction of four rooms valued at $43,865 at a health
      center in Mahmodiya.

      37,440 beneficiaries from the supply of office equipment valued at $4,875 to a health center
      in Sadr City.



5
    GAO/AIMD-00-21.3.1, November 1999.



                                                                                                   11
   36,000 beneficiaries from the supply of generator and medication equipment valued at
   $61,435 in Sadr City.

   960 beneficiaries from the supply of 480 uniforms valued at $7,680 to orphans in Sadr City.

In addition to the apparent overstatement of direct beneficiary counts, IRD reported 18,350
direct beneficiaries from cancelled projects.

The USAID/Iraq cooperative agreement with IRD established a target of 1 million direct
beneficiaries but did not define ―direct beneficiaries‖ or indicate how beneficiaries were to be
calculated. IRD developed its own guidelines for counting beneficiaries, which received tacit
approval from USAID/Iraq. However, these guidelines do not reflect the cooperative agreement
requirement that the counting be limited to direct beneficiaries.

In addition, USAID/Iraq did not assess the quality of this data—relying instead on the
implementer’s reporting. Although the mission commissioned two evaluations of the Community
Action Program as implemented by IRD, neither evaluation covered the calculation of direct
beneficiaries. The overstatement of direct beneficiaries occurred, in part, because USAID/Iraq
relied on its partners instead of monitoring or verifying reported data.

According to the United Nations’ World Urbanization Prospects: 2009 Revision, the population
of Baghdad as of 2009 was 5.8 million. It does not seem plausible that IRD’s activities under
the Community Action Program, with projects worth an estimated $11.8 million, could have
directly benefited 2.4 million people—close to half the city’s population. Beneficiary counts are
included among program accomplishment data reported to USAID decision makers.

Mission officials noted that individuals might benefit from more than one project and thus the
beneficiary numbers could count a single person more than once. However, IRD’s reporting of
direct beneficiaries to USAID/Iraq never mentioned this possibility. Without accurate data,
USAID/Iraq cannot obtain an accurate picture of the program’s accomplishments in Iraq.
Consequently, USAID/Iraq needs to issue clear guidance to help ensure that its partners
calculate the direct beneficiaries of their Community Action Programs uniformly, accurately, and
realistically.

   Recommendation 5. We recommend that USAID/Iraq (1) provide guidance to
   International Relief and Development on how to calculate the number of direct
   beneficiaries and (2) establish written procedures for reviewing and assessing reported
   results for direct beneficiaries.

Some Projects Require Follow-Up
OIG commissioned an Iraqi consulting firm to visit a sample of 51 completed projects to verify
their existence, beneficiaries, cost reasonableness, and impact. The sample included 31 school
projects, 9 road projects, 4 water projects, 3 health projects, 1 public garden project, 1 street-
lighting project, and 2 projects for handicapped individuals. All of the projects were in the
Baghdad area. Individually, the sampled projects cost between $4,150 and $156,715; together,
the sampled projects were valued at $2.7 million. The site visits showed that:

   All 51 projects existed.
   48 projects were completed on time.



                                                                                               12
    48 projects met requirements contained in the bill of quantities.6
    Most of the 51 projects met user expectations.
    Overall, the projects (like the pump below) improved the lives of community residents.




             This IRD-installed electrical irrigation pump improved farming for a
             village in the Baghdad area. (Photo by Combined Consultancy Company
             for Legal and Economic Investment Consultation LLC of Karradah,
             Baghdad, under contract with OIG, April 2011)

However, the site visits also identified several projects with problems that USAID/Iraq and IRD
need to resolve, including safety hazards, poor-quality work, and potential overcharges.

    Three schools had faulty electrical work that could endanger safety (items 15, 16, and 18 in
    Appendix V).

    Twelve projects had substandard work or supplied substandard materials (items 3, 11, 12,
    13, 14, 15, 16, 18, 21, 34, 37, and 38 in Appendix V) like the desks pictured on the next
    page.

    IRD potentially overcharged the mission for work on three projects. Two charges (items 39
    and 40 in Appendix V) exceeded market prices by 10 percent—in total $17,000. Item 45 in
    Appendix V was overcharged by $8,560 because items on the bill of quantities were not
    delivered.




6
  According to Chapter 2 of the Country Contracting Handbook (Procurement of Construction Services), a
bill of quantities lists the component parts of the contract work and provides for the pricing of each of
these elements. The Country Contracting Handbook is a mandatory reference for ADS 305, ―Host
Country Contracts.‖



                                                                                                      13
            These substandard desks were discarded at a primary school in
            Baghdad. (Photo by Combined Consultancy Company for Legal and
            Economic Investment Consultation LLC of Karradah, Baghdad, under
            contract with OIG, April 2011)

Office of Management and Budget Circular No. A–122, ―Cost Principles for Non-Profit
Organizations,‖ identifies factors affecting the allowability of costs, including reasonableness
and documentation. According to the circular, a cost is reasonable if, in its nature or amount, it
does not exceed that which would be incurred by a prudent person under the circumstances
prevailing at the time the decision was made to incur the costs. Consequently, we are
identifying the following overcharges as questioned costs for agreement officer determination,
and we make the following recommendation.

   Recommendation 6. We recommend that USAID/Iraq’s Office of Acquisition and
   Assistance determine the allowability of and collect, as appropriate, $25,560 in
   questioned, ineligible costs noted in this finding and detailed in Appendix V.

Concerning safety and quality of work, we make the following recommendation.

   Recommendation 7. We recommend that USAID/Iraq require International Relief and
   Development to resolve the safety and quality problems noted in this finding and report
   its corrective actions to the mission in writing.

Performance Monitoring Was Not
Sufficient
USAID/Iraq’s cooperative agreement with IRD requires quarterly financial reports, a
performance management plan (PMP), work plans, and quarterly progress reports on
performance. According to Automated Directives System (ADS) 200.6, a PMP is a tool to plan
and manage the process of assessing and reporting progress toward achieving an assistance
objective. ADS 203.3.3, "Performance Management Plans," provides guidance to USAID
missions on using PMPs for monitoring. The requirements for PMPs include the following:




                                                                                               14
   The preparation of a complete PMP for each assistance objective or program area, which
   includes all indicators that will be used to assess progress over the life of the program.

   A complete PMP should include a full set of indicators, baselines, and targets,
   disaggregated by sex whenever possible; data sources; data collection methods; a data
   collection schedule; data quality assessment procedures; cost estimates; possible
   evaluation efforts; and a calendar of performance management tasks (ADS 203.3.3.1).

   Usually as part of the mission’s annual portfolio review process, PMPs should be updated
   regularly with new performance information (ADS 203.3.4.6).

USAID/Iraq did prepare a PMP for the Community Action Program of IRD in February 2009,
which was approved in March 2009. However, since March 2009, USAID/Iraq has not updated
and approved a PMP that reflects ongoing results and the numerous subsequent changes in
program direction. Instead, USAID/Iraq has used multiple documents to fulfill this role of
program monitoring. These documents include the Year 2 work plan, the implementer’s
quarterly progress report issued at the end of Year 2, the Year 3 work plan, and an ad hoc
spreadsheet (called the Project Data Table) used by the implementer and the agreement
officer’s technical representative (AOTR). These documents worded indicators differently;
reported differing results; did not match (work plan indicators were not reported in progress
reports); included information that was inherently incorrect, such as baselines greater than or
equal to targets; and did not reflect a documented, approved monitoring plan that specifies
indicators, methods of measurement, and targets. (A complete analysis of all eight performance
indicators appears in Appendix VI.)

In addition to the ineffective monitoring tools employed in the absence of an approved PMP,
several indicators were a simple extrapolation of the basic program requirement of forming
community action groups and developing action plans for each community. Examples follow.

   The wording of the indicator, Number and percent of CAP III [Community Action Program
   Phase III]-assisted Nahiya and Qada councils that have implemented a formal community-
   driven needs assessment, project design, and implementation process into their work,
   changed. The implementer switched from reporting on councils ―implementing‖ a
   community-driven needs assessment to councils ―including‖ a community-driven needs
   assessment, thereby measuring only community action group formation.

   The indicator, Number of USG [U.S. Government]-assisted civil society organizations that
   engage in advocacy and watchdog functions (CAGs providing project oversight), measures
   advocacy in terms of community action group member approval of projects and equates
   watchdog functions with community action group members’ monitoring of project
   implementation, thereby measuring only community action group formation.

   The indicator, Number of local mechanisms supported by USG assistance for citizens to
   engage their subnational government, measured the number of community action groups
   formed with at least one project completed—not local mechanisms—thereby measuring only
   community action group formation.

As a result, these indicators did not effectively measure unique program interventions, and by
their alteration in reporting, indicate that the implementer did not undertake the proposed
activities.



                                                                                            15
The mission had not updated or approved a working PMP to manage IRD’s activities under the
Community Action Program since March 2009. Instead, by relying on the results reporting in
multiple, uncorrelated documents, the mission has reduced the transparency of program
performance and increased the risk of not accomplishing expected results. The AOTRs for
IRD’s agreement were also responsible for the community action programs implemented by
Mercy Corps, Cooperative Housing Foundation, and ACDI/VOCA. Staff turnover at USAID/Iraq
also contributed to the lack of an approved PMP, but high staff turnover also demonstrates the
need for such a reference document. Accordingly, we make the following recommendations.

   Recommendation 8. We recommend that USAID/Iraq, in conjunction with International
   Relief and Development, update and approve, in writing, a performance management
   plan that incorporates Automated Directives System requirements and includes
   indicators that measure discrete aspects of performance.

   Recommendation 9. We recommend that USAID/Iraq require International Relief and
   Development to submit work plans and progress reports that conform to indicators in the
   updated, approved performance management plan and the cooperative agreement, as
   applicable.

Cost-Sharing Requirements
Were Not Clear
According to 22 CFR 226.23(a), ―Cost sharing or matching,‖ all contributions, including cash and
third party in-kind, shall be accepted as part of the recipient’s cost sharing or matching when
such contributions are verifiable from the recipient’s records. Section (i)(2) also notes that the
basis for determining the valuation of cost share for personal services, material, equipment,
buildings, and land shall be documented. According to ADS 303.3.10, ―Cost Share‖:

   Cost sharing must be verifiable from the recipient’s records, is subject to the requirements of
   22 CFR 226.23, and can be audited. If a recipient does not meet its cost-sharing
   requirement, questioned costs can be a result.

   Cost sharing is an important element of the USAID-recipient relationship. When used, it
   should support or contribute to the achievement of results.

   The agreement officer’s technical representative (AOTR) should monitor the recipient’s
   financial reports to ensure that the recipient is making progress toward meeting the cost-
   sharing requirement.

Nevertheless, USAID/Iraq requirements for cost sharing under its agreement with IRD were not
sufficiently clear to allow effective monitoring of cost sharing. The original September 2008
USAID/Iraq award to IRD required a community contribution of 25 percent of total program
activity costs under Objective 1 and a Government of Iraq contribution of 20 percent of total
program activity costs under Objective 2. Simultaneously, the award established an overall
cost-sharing requirement of $6,316,528. However, the award did not define total activity costs
under either objective. In March 2009, the USAID/Iraq AOTR agreed to a reduced combined
rate of 29 percent—a different requirement than in the cooperative agreement. In addition, even
this agreed-on reduced rate did not define the total cost to use in calculating the percentage.

In September 2009, USAID/Iraq issued Modification 5 to the cooperative agreement.             The


                                                                                               16
modification required a combined cost-sharing contribution of 29 percent of total program costs
of Objective 1. The 29 percent was divided between community contributions (4 percent) and
government contributions (25 percent). In addition, the award modification required an overall
cost sharing of $34.7 million. This modification defined acceptable categories of contributions,
such as land, supplies, materials, technical services, volunteers, and transportation. However,
the modification did not define the total program costs of Objective 1. IRD and USAID staff
disagreed on how to calculate this requirement.

In September 2010, USAID/Iraq issued Modification 11 to the cooperative agreement. It
required a government cost-sharing contribution of 50 percent and a community cost-sharing
contribution of 2 percent of the total cost of all community projects. In addition, the award
modification increased the overall cost-sharing contribution to $61.9 million. However, the
award modification did not define all community projects.

Mission officials did not provide an explanation for the lack of clarity in the cooperative
agreement and subsequent modifications. The lack of precision in the cooperative agreement
and its modifications made it difficult to assess whether the program had met community and
Government of Iraq targets for cost sharing.            Accordingly, we make the following
recommendation.

   Recommendation 10. We recommend that USAID/Iraq clarify requirements for
   calculating cost-sharing contributions for the period of performance covered by
   Modification 11 to the cooperative agreement.




                                                                                             17
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Iraq agreed with Recommendations 5, 6, 7, 8, 9, and 10, and disagreed with
Recommendations 1, 2, 3, and 4. On the basis of the information provided in the mission’s
response, management decisions have been reached on Recommendations 7, 8, 9, and 10.
On completion of the planned corrective actions for recommendations with management
decisions, the Audit Performance and Compliance Division will determine final action.

In its comments on the draft report, USAID/Iraq stated that what we described in the draft report
as hindrances to full achievement of the program’s goals were a part of the natural project
development process. In addition, the mission stated that outcomes cited in the draft report
actually demonstrate the project’s success in adapting to realities on the ground in the complex,
postconflict environment of Baghdad. For example:

   Supply projects can provide immediate materials that complement efforts of the Iraqi
   Government.

   When a large volume of projects are being implemented, cancelled projects are to be
   expected.

   Revised community action plans are a positive sign that communities are learning how to
   adjust initial priorities based on the realities on the ground.

   A concentration of projects in some neighborhoods generally reflects variation in the needs
   and receptivity of different communities.

In general, we agree with the mission’s assertions. However, as we noted in the report, the
program could have been more effective. The principal hindrances to the achievement of the
program’s goals were that completed projects did not target the identified, prioritized needs of
the communities and that USAID/Iraq’s decision to accelerate the spending of program funds
had negative consequences. These consequences were a significant overreliance on supply-
type projects, cancelled (primarily infrastructure) projects, revisions to many community action
plans without documentation of the basis for the change or community participation, and a
concentration of projects in some neighborhoods.

   Supply-type projects are a legitimate Community Action Program option. However, as of
   November 2010, IRD had implemented 571 projects, of which 356 (62 percent) were valued
   at less than $25,000 and 310 (54 percent) were supply-type projects. These percentages
   were significantly higher than those for other USAID implementers of the Community Action
   Program. An overreliance on supply-type projects reduced the impact and sustainability of
   IRD’s activities under the Community Action Program.

   The cancelled projects focused on infrastructure projects as opposed to supply projects. Of
   79 cancelled projects, only 10 were supply-type projects. In contrast, IRD project data of
   November 2010 showed the share of completed supply-type projects was about 54 percent.
   Among the 195 projects programmed for our sample of 36 community action groups, IRD


                                                                                              18
   cancelled 32 projects. Of the 32 cancelled projects, 13 were programmed for school
   construction and rehabilitation; 11 for road construction or repair; and 8 for the rehabilitation
   of water networks, installation of electric transformers, establishment of public gardens, and
   installation of textile sewing machines for widows. Just 1 of these 32 cancelled projects was
   programmed for the provision of supplies. Substituting small, supply-type projects for those
   with longer-term impact, such as infrastructure rehabilitation projects, turns much of the
   program into an acquisition agent for community supplies.

   IRD revised many of the community action plans, but often without adequately documenting
   the basis for the change or the participation of community action group members. For
   example, 12 of the 32 revised community action plans were not adequately documented—
   particularly for the key element of citizen participation.

   IRD concentrated projects in some neighborhoods. For example, of the 146 completed
   projects with a value of $4.1 million in our sample, IRD concentrated 29 projects with a value
   of $1.3 million in two neighborhoods. As a result, about 31 percent of the value of all IRD
   completed projects was programmed to benefit just 2 of 36 neighborhoods.

Recommendation 1. The mission disagreed with requiring IRD to program the remaining
projects to target community-identified needs and report quarterly on its progress, stating that
both actions required are already being taken. The mission added that it did not expect the
community action plans to be static documents or to capture all the needs of the community.

We disagree that current mission actions address the recommendation. The mission stated that
community action plans might not capture all the needs of the community. The statement is not
relevant and depreciates the work of community action groups to identify and prioritize their
needs. Any community would have numerous needs, with some potentially not covered by the
community action plan. However, each community has identified and prioritized, through these
plans, a broad range of priorities (not distinct projects) that are financially feasible, such as
drinking water, health care, education, sewerage, and road repairs. As noted in the report, the
USAID/Iraq cooperative agreement with IRD emphasized that ―the core of the community action
program is that the communities select, prioritize, and contribute to the projects implemented in
their areas. This process of community-driven development leading to specific projects formed
the genetic code of the community action program.‖ Neither IRD nor the mission indicated that
community needs are captured in documents other than community action plans or projects
implemented may come from sources other than community action plans.

We agree that community action plans are not expected to be static documents, but IRD has
established clear procedures for the revision of community action plans when necessary. IRD
must hold and document a 1-day workshop for community action group members and document
approval by the majority of the community action group of any and all revisions.

On the basis of the information provided in the mission’s response, a management decision has
not been reached. USAID/Iraq can request a management decision when USAID/Iraq
implements the recommendation to require IRD to program remaining projects to target the
community-identified needs and report quarterly on its progress. The recommendation
purposely emphasizes ―community-identified.‖

Recommendation 2. The mission agreed with the first part of the recommendation, to include
in its periodic performance reports a breakdown of the number of projects by type, including
supply-type, but noted that it will be difficult to close the recommendation as written since IRD


                                                                                                 19
already provides subactivity reports with each weekly report that allow the agreement officer’s
technical representative (AOTR) to review the types of projects being implemented and to sort
by neighborhood. The mission disagreed with the second part of the recommendation, to
include a breakdown of projects by neighborhood. Having regularly reviewed subactivity reports
USAID believes that IRD’s implementation is on track with the intent of the program and that
variation based on the needs and level of cooperation in the communities could cause variation
in where projects are concentrated.

We disagree that reviewing subactivity reports addresses the recommendation. We expect IRD
to provide the breakdown by type and by neighborhood including an explanation of high
concentrations on either measure. We agree that some variation is to be expected. However,
the example of 31 percent of IRD completed projects benefitting just 2 of 36 neighborhoods
indicates a concentration. Our recommendation ensures that the mission has the information
available to monitor potential concentration of projects in neighborhoods.

On the basis of the information provided in the mission’s response, a management decision has
not been reached. USAID/Iraq can request a management decision when USAID/Iraq
implements all parts of the recommendation to require IRD to include in its periodic performance
reports a breakdown of the number of projects (1) by type, including supply-type, and (2) by
neighborhood, explaining high concentrations on either measure.

Recommendation 3. The mission disagreed with issuing guidelines limiting the percentage of
supply-type projects that IRD can implement. The mission stated that the cooperative
agreement and subsequent modification do not express a preference for project type and that
the distinction between supply-type and infrastructure projects misses the point of focusing on
community needs and the project development process.

Far from missing the point, our recommendation to distinguish between supply-type and
infrastructure projects and limit the former focuses on and affirms community needs and the
project development process. OIG audit’s central message as stated on page 1 is as follows:
―The principal hindrances to the achievement of the program’s goals were that completed
projects did not target the identified, prioritized needs of the communities.‖ As noted in the draft
report, supply-type projects are a legitimate Community Action Program option. However, IRD
relied too much on supply-type projects as illustrated in Table 2 and reflected in the comments
of school administrators we interviewed (page 8). An overreliance on supply-type projects
reduced program impact and sustainability.

On the basis of the information provided in the mission’s response, a management decision has
not been reached. USAID/Iraq can request a management decision when USAID/Iraq
implements the recommendation to issue guidelines limiting the percentage of supply-type
projects that IRD can implement.

Recommendation 4. The mission disagreed with requiring IRD to include in its periodic
performance reports a list of cancelled projects and a list of revised community action plans.
The mission stated that IRD already provides subactivity reports with each weekly report that
allow the AOTR to see the cancelled projects. The mission believes that asking the
implementer to summarize that information in a list of revised plans will not add much value.

We disagree that reviewing subactivity reports addresses the recommendation. We expect IRD
to provide the lists. The report noted that cancelled projects focused on infrastructure projects
as opposed to supply projects. In addition, IRD revised many of the community action plans,


                                                                                                 20
but often without adequately documenting the basis for the change or the participation of
community action group members. Our recommendation ensures that the mission has the
information available to monitor cancelled projects and revisions in community action plans.

On the basis of the information provided in the mission’s response, a management decision has
not been reached. USAID/Iraq can request a management decision when USAID/Iraq
implements the recommendation to require IRD to include in its required periodic performance
reports a list of cancelled projects and a list of revised community action plans.

Recommendation 5. The mission agreed with this recommendation concerning issuing
guidance on counting direct beneficiaries. The mission stated that, although IRD has a USAID-
approved policy for counting beneficiaries and follows this policy, the mission has discussed
with IRD how to make documentation clearer. As a result of this discussion, the AOTR has
required IRD to include a footnote explaining that beneficiaries served by multiple projects may
be counted more than once.

The mission’s response does not acknowledge that reported numbers of direct beneficiaries are
overstated and that current guidelines do not require that counting be limited to direct
beneficiaries. (Direct is the key word.) For example, it is not realistic to count 72,000
beneficiaries from the supply of vaccination and office equipment valued at $785 to a health
center.     Mission actions are insufficient to address the unrealistic reporting of direct
beneficiaries. The recommendation requires more than a footnote in IRD reports explaining that
beneficiaries may be counted more than once. As stated in the report, USAID/Iraq needs to
issue clear guidance to help ensure that its partners calculate the direct beneficiaries of their
activities under the Community Action Program uniformly, accurately, and realistically.

On the basis of the information provided in the mission’s response, a management decision has
not been reached. USAID/Iraq can request a management decision when USAID/Iraq (1)
provides guidance to IRD on how to calculate direct beneficiaries and (2) establishes written
procedures for reviewing and assessing reported results for direct beneficiaries.

Recommendation 6. The mission agreed that the agreement officer will gather and examine
information and documentation in order to reach a management decision on our
recommendation to determine the allowability of and collect, as appropriate, $25,560 in
questioned, ineligible costs.

On the basis of the information provided in the mission’s response, a management decision has
not been reached. USAID/Iraq can request a management decision when USAID/Iraq’s Office
of Acquisition and Assistance makes the final determination on the allowability of $25,560 in
questioned, ineligible costs noted in this finding and detailed in Appendix V. According to the
mission, the target date for completion of this recommendation is January 31, 2012.

Recommendation 7. The mission agreed to require IRD to resolve safety and quality problems
and document their resolution. The mission reported that it had instructed IRD to follow up on
specific safety and quality problems. On the basis of the information provided in the mission’s
response, a management decision has been reached. The target date for completion of this
action is January 31, 2012.

Recommendation 8. The mission agreed with the recommendation on updating and approving
the performance management plan, stating that, although IRD has an approved PMP that meets
ADS standards, USAID will work to make sure changes are better documented and tracked.


                                                                                              21
We disagree that the PMP meets ADS standards. The agreement officer’s technical
representatives (AOTR) are currently updating PMPs for all four Community Action Program
implementers to make the plans more consistent. On the basis of the information provided in
the mission’s response, a management decision has been reached. The target date for
completion of this action is November 30, 2011.

Recommendation 9. Regarding requiring IRD to submit work plans and progress reports that
conform to indicators in the updated, approved PMP and the cooperative agreement, the
mission agreed with the recommendation. As it did in response to Recommendation 8, the
mission stated that although IRD has an approved PMP that meets ADS standards, USAID will
work to make sure changes are better documented and tracked.

We disagree that the PMP meets ADS standards. The AOTRs are currently updating PMPs for
all four Community Action Program implementers to make the plans more consistent. On the
basis of the information provided in the mission’s response, a management decision has been
reached. The target date for completion of this action is November 30, 2011.

Recommendation 10. The mission agreed with the recommendation and has taken steps to
clarify the calculation of cost-sharing contributions. USAID discussed requirements for cost-
sharing contributions with IRD at the Community Action Program partners meeting held in July
2011. USAID has reviewed the cost-share policy and devised ways to strengthen the
calculations provided—for example by using the lowest estimated land value when calculating
cost sharing and by focusing on the value of cost sharing rather than on the percentage. On the
basis of the information provided in the mission’s response, a management decision has been
reached. The target date for completion of this action is November 30, 2011.




                                                                                            22
                                                                                         Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis. The
objective of this audit was to determine whether activities implemented by IRD under the
Community Action Program were achieving their main goals of communities better articulating
their needs and mobilizing their resources to solve common problems.

IRD’s activities under the Community Action Program are designed to meet three objectives:
(1) to improve the capacity of communities to better identify their needs, articulate their role, and
mobilize their resources, (2) to improve the capacity of local governments to meet the
articulated needs of communities, and (3) to assist civilian victims of conflict. Our audit did not
cover activities under the third objective, known as the Marla Ruzicka Iraqi War Victims Fund.

We conducted fieldwork at USAID/Iraq and at IRD’s office in Karradah, inside Baghdad’s Red
Zone. The Office of Inspector General/Iraq entered into a contract with a local Iraqi firm—
Combined Consultancy Company for Legal and Economic Investment Consultation LLC of
Karradah, Baghdad, to perform site inspections of 51 sampled projects completed by IRD in the
Baghdad area.

We identified and reviewed the internal controls at both USAID/Iraq and the implementer’s office
that were significant to answer the audit objective. At USAID/Iraq, we reviewed the mission’s
2010 certification required under the Federal Managers’ Financial Integrity Act of 1982 for
monitoring and oversight by mission personnel, portfolio reviews by USAID management,
performance monitoring plan reviews by USAID, data quality assessments, USAID approvals of
projects exceeding $100,000, and designation letters outlining the responsibilities of the
agreement officer’s technical representative. At the implementer’s office, we reviewed controls
for project procurements, collection of performance results data, project data, and monitoring
and oversight by implementer personnel. In addition, we confirmed the implementer’s
compliance with the requirements for environmental reviews, USAID marking policy, and
implementation of Executive Order 13224 on terrorist financing.

The scope of the audit covered the first 2 years of program implementation from October 1,
2008, to November 30, 2010. As of September 30, 2010, USAID/Iraq had obligated $74 million
and had expended $35 million on the Community Action Program implemented by IRD. We
conducted our fieldwork between February 21, 2010, and June 28, 2011. Because of OIG/Iraq
personnel rotations, the audit fieldwork was delayed three times.

Methodology
To answer the audit objective, we identified the activity’s goals, interviewed mission and
implementer officials, and reviewed numerous program documents—the cooperative
agreement; cooperative agreement modifications; the implementer’s management plan; annual
work plans; ADS chapters; documents for 36 community action plans; project files; implementer



                                                                                                  23
                                                                                          Appendix I


financial and progress reports from October 1, 2008, to November 30, 2010; and monitoring
files of the AOTR. We interviewed key implementer personnel in Baghdad, including senior
managers, the monitoring and evaluation director, the finance and administration director, the
community mobilization director, training and capacity-building staff, tendering personnel, and
engineers.

We reviewed activities in the implementer’s work plans, including timelines showing when
individual activities were to be completed. We tried to determine whether the activities for eight
indicators selected for testing achieved their planned results. We judgmentally selected these
eight performance and output indicators because the AOTR for the program identified them as
important to program success. For most indicators, because of limitations in the validity of the
reported results as discussed in the report, we could not determine whether planned results
were achieved. The audit used a 5 percent materiality threshold in determining whether
performance targets were met for individual indicators.

To determine the extent to which project activities targeted the neighborhoods’ articulated needs
as identified in their community action plans, we randomly selected a statistically projectable
sample7 of 36 community action groups at a 90 percent confidence level and 4 percent
precision. The purpose of the review was to compare completed projects in each community
with needs identified in that community’s action plan.

To analyze IRD projects, we used November 2010 project data as the basis for our analysis.
For comparing results with the other three Community Action Program implementers, we
analyzed project data provided by ACDI/VOCA as of September 30, 2010; Cooperative Housing
Foundation as of December 31, 2010; and Mercy Corps as of September 30, 2010.

To determine the impact of IRD’s completed projects, we contracted with a local Iraqi firm—
Combined Consultancy Company for Legal and Economic Investment Consultation LLC of
Karradah, Baghdad, to perform site inspections of 51 sampled projects completed by IRD in the
Baghdad area. The site visits verified several factors, including existence, beneficiaries,
reasonableness of costs, and impact. We randomly selected a statistically projectable and
stratified sample of 51 projects with a 90 percent confidence level with 4 percent precision. The
stratified sample provided greater weight to more expensive projects. The sample included 31
school projects, 9 road projects, 4 water projects, 3 health projects, 1 public garden project,
1 street lighting project, and 2 projects for handicapped individuals. All of the projects were in
the Baghdad area. The sampled projects ranged in cost from $4,150 to $156,715; together the
sampled projects were valued at $2.7 million.

For our audit planning and audit fieldwork, we considered the results of three prior Office of
Inspector General/Iraq performance audits of the USAID/Iraq Community Action Program.8




7
   All of the audit’s statistical samples were prepared with the assistance of the OIG statistician in
Washington, D.C.
8
  The three prior performance audits were ―Audit of USAID/Iraq’s Community Action Program‖ (Audit
Report No. E-267-05-001-P, January 31, 2005), ―Audit of USAID/Iraq’s Management of the Marla Ruzicka
Iraqi War Victims Fund‖ (Audit Report No. E-267-08-002-P, April 3, 2008), and ―Audit of USAID/Iraq’s
Community Action Program II‖ (Audit Report No. E-267-08-005-P, August 5, 2008).




                                                                                                   24
                                                                                        Appendix II



MANAGEMENT COMMENTS

                                                                                 October 20, 2011

MEMORANDUM
UNCLASSIFIED

TO:            Lloyd Miller, Director Office of Inspector General/Iraq

FROM:          Alex Dickie, Mission Director /s/

SUBJECT:       Management Response to Draft Audit Report E-267-12-00x-P

REFERENCE: Office of Inspector General (OIG)/Iraq Draft Audit Report entitled “Audit of
USAID/Iraq’s Community Action Program Activities Implemented by International Relief and
Development” transmitted to the Mission Director on September 21, 2011.

Thank you for the opportunity to comment on the referenced Draft Audit Report. USAID/Iraq
recognizes the value of this audit as a management tool to further strengthen our programs. We
extend our appreciation to OIG/Iraq for the cooperation exhibited throughout the production of
this report.

USAID/Iraq feels that many of the consequences described in the OIG report as hindrances to
full achievement of the program’s goals are, in fact, a part of the natural project development
process. The report draws conclusions about project ineffectiveness and cites outcomes which
actually demonstrate the project’s success in adapting to realities on the ground in the complex,
post-conflict environment of Baghdad.

For instance, supply projects can provide immediate materials that complement efforts of the
Iraqi government; for example, USAID-funded student desks in an Iraqi-maintained school. In
other cases, International Relief and Development (IRD) renovated classrooms and the
government provided the desks. We see both cases as successful community action projects.

When a large volume of projects are being implemented, cancelled projects are to be expected.
Government approvals can fall through or project contractors who underperform on one project
may have other projects cancelled. Stopping a project if it cannot be successful is a positive step
for implementers to take, demonstrating effective oversight in a complex working environment.

The fact that community action plans were revised is a positive sign that communities are
learning how to adjust initial priorities based on the realities on the ground. Original
community-based action plans may have tried to tackle projects that went beyond the purview of



                                                                                                 25
                                                                                       Appendix II


the local community (as in improving an electricity network that needs district-wide resources),
bureaucratic hurdles may be encountered, needs may change, or new project opportunities
present themselves.

Finally, a concentration of projects within some neighborhoods generally reflects that there is a
variation in the needs and receptivity of different communities to CAP.

Recommendation 1
We recommend that USAID/IRAQ require International Relief and Development to program
remaining projects to target the community-identified needs and report quarterly on its progress.

The mission disagrees with this recommendation because we believe that both actions are
already being taken. As stated in the Cooperative Agreement highlighted in the report, IRD
assists communities in identifying their priorities and implements projects that benefit the
community. However, USAID does not expect that the community action plans are static
documents or that they capture all needs of the community.

There are two stages. In the first stage, IRD guides communities in creating action plans that
prioritize their needs for development projects. In the second stage, USAID-funded projects are
used as a practical tool to help communities go through the project development process of
planning, seeking approval, implementing, and ongoing monitoring. The project implemented
may come from the community action plan, but smaller projects may be used in order to
demonstrate the skills of project development on a manageable scale.

In order to better document community participation in the selection of the ultimately funded
project, USAID will instruct IRD to improve its documentation of community action plan
revisions.

Recommendation 2
We recommend that USAID/IRAQ require International Relief and Development to include in its
periodic performance reports a breakdown of the number of projects (1) by type, including
supply-type, and (2) by neighborhood, explaining high concentrations on either measure.

The mission agrees with item number one, however it will be difficult to close the
recommendation as written since IRD already provides sub-activity reports with each weekly
report that allow the Agreement Officer’s Technical Representative (AOTR) to review the types
of projects being implemented and to sort by neighborhood.

The mission disagrees with item number two. Based on regular monitoring of those reports,
USAID believes IRD’s implementation is on track with the intent of the program. It is logical to
expect that variation based on needs and level of cooperation within the communities could
cause variation in where projects are concentrated.

Recommendation 3
We recommend that USAID/IRAQ issue guidelines limiting the percentage of supply-type
projects that International Relief and Development can implement.



                                                                                                26
                                                                                        Appendix II


The mission disagrees with this recommendation. The Cooperative Agreement and subsequent
modifications do not express a preference for project type. The distinction between supply and
infrastructure projects, as stated in the draft report, misses the point of focusing on community
needs and the project development process. In one example from the draft report, it is clear that
the focus on supply and the overall cost might be misleading. For example, the report provides a
list of projects, including one that describes “Supply and install electrical irrigation pumps with
pipes in village” and the total is less than $25,000. This “supply” project could also be seen as
providing infrastructure for improved water in the village. Other projects that provide school
desks, computers, or medical equipment all provide items that contribute to the existing
infrastructure in the communities. USAID does not believe these to be a less appropriate project
type than rebuilding a classroom or paving a road. Projects are chosen based on need and
feasibility. Monitoring of the sub-activity data suggest these projects are serving the purpose of
the Community Action Program.

Recommendation 4
We recommend that USAID/IRAQ require International Relief and Development to include in its
required periodic performance reports a list of cancelled projects and a list of revised
community action plans.

The mission disagrees with this recommendation. IRD already provides sub-activity reports with
each weekly report that allow the AOTR to see the cancelled projects. The fact that some
projects get cancelled is a part of the project development process, and is partly due to quality
issues. If a contractor is found not to provide good quality services, any other contract with that
company will be cancelled. The weekly reports also indicate when Community Action Groups
(CAGs) meet to revise their community action plans. It doesn’t add much value to ask the
implementer to summarize that information into an overall list of revised plans. However, as
stated above in response to Recommendation # 1, USAID will instruct IRD to improve its
documentation of community action plan revisions.

Recommendation 5
We recommend that USAID/IRAQ (1) provide guidance to International Relief and Development
on how to calculate the number of direct beneficiaries and (2) establish written procedures for
reviewing and assessing reported results for direct beneficiaries.

The mission agrees with this recommendation. Although IRD has a beneficiary count policy that
has been approved by USAID and IRD has been following this policy, USAID has discussed
with IRD how to make the documentation more clear for the future. The AOTR has instructed
IRD to include a footnote to explain that beneficiaries served by multiple projects may be
counted more than once. Based on this, the mission believes that corrective action has been
taken.

Recommendation 6
We recommend that USAID/Iraq’s Office of Acquisition and Assistance determine the
allowability of and collect, as appropriate, $25,560 in questioned, ineligible costs noted in this
finding and detailed in Appendix V.




                                                                                                     27
                                                                                    Appendix II


The agreement officer will gather and examine information and documentations in order to reach
a management decision on this recommendation.

Target date for completion of this action is January 31, 2012.

Recommendation 7
We recommend that USAID/IRAQ require IRD to resolve the safety and quality problems noted
in this finding and report its corrective actions to the mission in writing.

The mission agrees with this recommendation. Based on the preliminary audit findings, USAID
has contacted and discussed this issue with IRD. We agree that any safety or quality problems
should be corrected. USAID has instructed IRD to follow up on these specific problems.

Target date for completion of this action is January 31, 2012.

Recommendation 8
We recommend that USAID/Iraq, in conjunction with International Relief and Development,
update and approve, in writing, a performance management plan that incorporates Automated
Directives System requirements and includes indicators that measure discrete aspects of
performance.

The mission agrees with this recommendation. Although IRD has an approved Performance
Management Plan (PMP) on file and does meet these standards, USAID will work to make sure
changes are better documented and tracked to make it clearer for future. The AOTRs are
currently updating PMPs for all the four CAP partners including IRD to be more consistent for
all CAP III implementing partners.

Target date for completion of this action is November 30, 2011.

Recommendation 9
We recommend that USAID/IRAQ require International Relief and Development to submit work
plans and progress reports that conform to indicators in the approved performance management
plan and the cooperative agreement, as applicable.

The mission agrees with this recommendation. Although this is already being done, USAID will
work to make sure changes are better documented and tracked to make it clearer for the future.
USAID/Iraq is updating its PMP for the four CAP III partners and will ensure that IRD submits
work plans and progress reports that conform to indicators in the updated PMP.

Target date for completion of this action is November 30, 2011.

Recommendation 10
We recommend that USAID/IRAQ clarify requirements for calculating cost-sharing
contributions for the period of performance covered by Modification 11 to the cooperative
agreement.




                                                                                            28
                                                                                     Appendix II


The mission agrees with this recommendation and has taken steps to clarify the calculations of
the cost-sharing contributions. After the issuance of the Discussion Paper, USAID discussed this
issue with IRD at the CAP partners meeting held on July 17, 2011. USAID has reviewed cost
share policy associated with this agreement and identified means to strengthen the calculations
provided. For example, IRD has agreed to use the lowest estimated land value when calculating
cost share. USAID intends to focus on the value rather than the percentage of cost-share in order
to present a clearer picture of government and community contributions.

Target date for completion of this action is November 30, 2011.




                                                                                              29
                                                                             Appendix III



        Prioritized Needs of 36 Sampled Neighborhoods and
             Completed Projects That Met Those Needs

                                 Community Plans’
                                 Prioritized Needs          Unidentified    Projects
         Neighborhood
                                                               Need        Completed
                               1  2     3    4   5 6
1    Washwash                                                                  0
2    Baya'a                                                                    0
3    Al Salam                       1                                          1
4    Mansour                                            1                      1
5    Hadhar                                                      2             2
6    Resala                    3                                               3
7    Waziriya                                 1    3                           4
8    Riydah                    1         1                                     2
9    Qadesiya                                                    3             3
10   Al Jamhouriya                                               3             3
11   Bub Sham                       2    1                       4             7
12   Fahama                         2    1                                     3
13   Al Mohamadiya Center      1                   1             1             3
14   Al Zahra'a                               2    1             1             4
15   Nahyat Al Rasheed         1                                 3             4
16   Bayda'a                                                     3             3
17   Jame'a                    2    3              1                           6
18   Al-Salhiya                               1                  3             4
19   Abu Dsheer                          3                                     3
20   Abu Ghraib Center              5                            1             6
21   Tunis                                         5                           5
22   Radhwaneya                1              1                  1             3
23   Yarmouk                   1                                 3             4
24   Al Nasr Walsalam                         1                  1             2
25   Shurta                         1                            2             3
26   Fajir                                    3                                3
27   Khadra’a                  1                   1             4             6
28   Sadr City 5                    2         3                  1             6
29   Baghdad Al-Jadeeda                       3                                3
30   Sabe'a Qsoor                   2                                          2
31   Al Wehda                            1                       3             4
32   Kanaan                         4                                          4
33   Al Fedhaliya                        4                                     4
34   Baladiyat                       6                                         6
35   Baquba Center                   6   1         1            1              9
36   Khan Dhari                      6         4                10            20
                    Totals =   11   40   12   19   13   1       50            146




                                                                                       30
                                                             Appendix IV


Distribution of Completed Projects Among Neighborhoods
                  by Number and Value
            Neighborhood        Projects Completed   Value ($)
1     Washwash                           0                      0
2     Baya'a                             0                      0
3     Al Salam                           1                  6,110
4     Mansour                            1                 16,720
5     Hadhar                             2                 18,308
6     Resala                             3                 27,072
7     Waziriya                           4                 27,710
8     Riydah                             2                 29,040
9     Qadesiya                           3                 31,255
10    Al Jamhouriya                      3                 34,668
11    Bub Sham                           7                 41,302
12    Fahama                             3                 53,875
13    Al Mahmodiya Center                3                 56,607
14    Al Zahra'a                         4                 66,475
15    Nahyat Al Rasheed                  4                 66,645
16    Baydha'a                           3                 69,406
17    Fajir                              3                 69,720
18    Jame'a                             6                 77,105
19    Al-Salhiya                         4                 77,872
20    Abu Dasheer                        3                 82,048
21    Abu Ghraib Center                  6                 97,269
22    Tunis                              5                 97,871
23    Radhwaneya                         3                103,496
24    Yarmouk                            4                104,687
25    Al Nasr Welsalam                   2                105,025
26    Shurta                             3                116,865
27    Khadra’a                           6                118,554
28    Sadr City 5                        6                125,886
29    Baghdad Al-Jadeeda                 3                137,206
30    Sabe'a Qsoor                       2                139,665
31    Al Wehda                           4                157,790
32    Kanaan                             4                157,898
33    Al Fedhaliya                       4                176,770
34    Baladiyat                          6                302,397
35    Baquba Center                      9                430,886
36    Khan Dhari                         20               847,046
                      Total =           146             4,071,247




                                                                     31
                                                                                          Appendix V


               Results of Site Visits to 51 Sampled Projects
Sampled    Project       Project
                                         Cost ($)         Conclusion                  Impact
 Project   Number      Description
                     Construct 4                                               Project helped
                     classrooms for                                            school become more
   1       C0030                            76,701   Finished construction.
                     primary school                                            conducive to
                     for boys.                                                 learning.
                                                     Supplied medical
                                                                               Supplies allowed the
                     Supply medical                  equipment that was
                                                                               medical facility to
   2       C0110     equipment for          17,950   operable, in good
                                                                               provide better
                     health center.                  condition, and met
                                                                               services.
                                                     expectations.
                     Supply
                                                     Supplied furniture and
                     computer
                                                     equipment in
                     laboratory,
                                                     accordance with bill of   Project helped
                     student
                                                     quantities.               school become more
   3       C0394     furniture, and         13,065
                                                     Deliverables generally    conducive to
                     office
                                                     met expectations, but     learning.
                     equipment for
                                                     office furniture was
                     high school for
                                                     substandard.
                     boys.
                     Supply and lay                  Completed work in
                     a 2,550-meter                   accordance with bill of   Project provided
   4       C0357     main potable           65,475   quantities. Pipe was      drinking water to
                     water line to a                 of good quality and       village citizens.
                     village.                        met expectations.
                                                     Completed garden in
                     Establish new
                                                     accordance with the       Project gives families
                     public garden
   5       C0008                            34,400   bill of quantities;       the opportunity for
                     in
                                                     garden met                social gathering.
                     neighborhood.
                                                     expectations.
                                                     Supplied computers,
                     Supply
                                                     office furniture,
                     computer lab                                              Project helped
                                                     refrigerator, air-
                     and office                                                school become more
   6       C0010                            16,191   conditioner, and audio
                     equipment for                                             conducive to
                                                     system that benefited
                     secondary                                                 learning.
                                                     school administrators
                     school for girls.
                                                     and met expectations.
                                                     Completed                 Project helped
                     Construct 4
                                                     constructed of 4          school become more
   7       C0069     classrooms for       103,580
                                                     classrooms that met       conducive to
                     primary school.
                                                     expectations.             learning.
                     Supply and                      Installed 10 solar        Street lighting
                     install solar                   panels with solar         provided security
   8       C0101                            26,900
                     system in                       chargers and lighting     and increased social
                     public garden.                  poles.                    gatherings.
                                                     Supplied air-
                     Supply                          conditioner, water        Project provided
                     kindergarten                    dispenser, computer,      opportunities for
   9       C0213                             8,283
                     with                            toys, and games.          children to improve
                     equipment.                      Toys and games were       their learning skills.
                                                     of low quality.



                                                                                                        32
                                                                                        Appendix V


Sampled    Project      Project
                                         Cost ($)         Conclusion                 Impact
 Project   Number     Description
                                                     Supplied computer,
                     Supply                          water dispenser, air-
                                                                               Project helped
                     computer lab                    conditioning, and
                                                                               school become more
  10       C0235     and office             12,485   audio system.
                                                                               conducive to
                     equipment for                   Deliverables satisfied
                                                                               learning.
                     primary school.                 needs of school
                                                     administrative staff.
                     Construct
                                                     Built computer lab and
                     computer and
                                                     provided student
                     physics labs
                                                     furniture and office
                     and supply                                                Project helped
                                                     equipment.
                     student                                                   school become more
  11       C0364                            43,967   Deliverables such as
                     furniture and                                             conducive to
                                                     cabinet drawers were
                     office                                                    learning.
                                                     substandard, and
                     equipment for
                                                     computer laboratory
                     secondary
                                                     work was not finished.
                     school for girls.
                                                     Constructed 6
                                                     bathrooms, but
                                                     building material and
                     Construct new
                                                     construction of a         Project helped
                     bathrooms in
                                                     walkway and door          school become more
  12       C0406     secondary              17,756
                                                     locks were                conducive to
                     school for
                                                     substandard. Overall,     learning.
                     boys.
                                                     deliverables were
                                                     accepted by end
                                                     users.
                                                     Delivered student
                                                     furniture and office
                     Supply student
                                                     supplies in               Project did not have
                     furniture and
                                                     accordance with bill of   expected impact
  13       C0486     office                 10,614
                                                     quantities. Student       because deliverables
                     equipment to
                                                     desks and office          were substandard.
                     primary school.
                                                     furniture were
                                                     substandard.
                     Supply student                  Supplied student
                     furniture and                   furniture and office
                                                                               Project helped
                     office                          equipment that did not
                                                                               school become more
  14       C0518     equipment and          10,328   meet end users’
                                                                               conducive to
                     furniture to                    expectations because
                                                                               learning.
                     high school for                 they were
                     girls.                          substandard.




                                                                                                 33
                                                                                         Appendix V


Sampled    Project      Project
                                         Cost ($)         Conclusion                 Impact
 Project   Number     Description
                                                     Replaced doors and
                                                     main gate;
                                                     rehabilitated
                                                     sewerage system, and
                                                                              Project did not have
                                                     provided school
                     Rehabilitate                                             expected impact,
                                                     supplies.
  15       C0080     mixed primary          91,636                            and faulty electrical
                                                     Substandard
                     school.                                                  work exposed
                                                     workmanship seen in
                                                                              students to hazards.
                                                     blockage in sewerage
                                                     and rainwater
                                                     networks; and
                                                     electricity issues.
                                                     Demolished existing
                                                     bathrooms and built
                                                     new ones;
                     Add 2                           rehabilitated 2
                     classrooms;                     classrooms.
                                                                              With the exceptions
                     rehabilitate the                Construction was of
                                                                              noted, project
  16       C0122     bathrooms and          52,504   acceptable quality
                                                                              generally met end
                     supply office                   except rainwater
                                                                              users’ expectations.
                     for secondary                   system was broken,
                     school for girls.               and electrical wiring
                                                     issues in water
                                                     coolers might be
                                                     dangerous.
                     Supply desks
                     and other                       Supplied student         Project helped
                     equipment to                    desks of acceptable      school become more
  17       C0134                             6,600
                     intermediate                    quality and met          conducive to
                     school for                      expectations.            learning.
                     boys.
                     Rehabilitate
                                                     Rehabilitated
                     the
                                                     classroom and
                     classrooms,                                              Project did not have
                                                     reconstructed
                     demolish and                                             expected impact
                                                     bathrooms. New
                     reconstruct the                                          because work was
                                                     doors and bathrooms
  18       C0242     bathrooms,             97,476                            substandard, and
                                                     were substandard,
                     and supply                                               faulty electrical work
                                                     and the electrical
                     office                                                   exposed students to
                                                     wiring issues in water
                     equipment for                                            danger.
                                                     cooler might be
                     mixed primary
                                                     dangerous.
                     school.
                                                     Delivered 50
                     Supply 50                                                Wheelchairs helped
                                                     wheelchairs according
                     wheelchairs for                                          persons with
  19       C0248                             4,150   to specifications,
                     handicapped                                              disabilities as result
                                                     meeting users’
                     recipients.                                              of conflict.
                                                     expectations.




                                                                                                       34
                                                                                        Appendix V


Sampled    Project        Project
                                       Cost ($)         Conclusion                   Impact
 Project   Number      Description
                     Supply
                     secondary
                                                                              Project helped
                     school with                   Provided school
                                                                              school become more
  20       C0350     student               7,665   supplies that met
                                                                              conducive to
                     furniture and                 expectations.
                                                                              learning.
                     office
                     equipment.
                                                   Completed
                                                   construction of 4
                                                   classrooms in
                     Construct 4
                                                   accordance with bill of    Project alleviated the
                     classrooms in
  21       C0096                          55,754   quantities. New            seating problem.
                     coed primary
                                                   classroom’s low floor
                     school.
                                                   will expose classes to
                                                   flooding during the
                                                   rainy season.
                     Construct 1                   Completed
                     classroom and                 construction of 1
                                                                              Project helped
                     a new                         classroom in
                                                                              school become more
  22       C0368     computer             30,148   accordance with bill of
                                                                              conducive to
                     laboratory for                quantities; classroom
                                                                              learning.
                     secondary                     accepted by end
                     school.                       users.
                                                   Provided student and
                     Supply student
                                                   office furniture in        Project helped
                     furniture and
                                                   accordance with the        school become more
  23       C382      office               15,508
                                                   bill of quantities;        conducive to
                     equipment for
                                                   deliverables met           learning.
                     primary school.
                                                   expectations.
                     Provide 200                   Supplied uniforms and
                     orphans with                  school supplies in         Project provided
  24       C0514     uniforms and         12,225   accordance with bill of    assistance to
                     school                        quantities and met         persons in need.
                     supplies.                     expectations.
                                                   Replaced bathroom
                     Rehabilitate                                             Project helped
                                                   tiles, painted, repaired
                     intermediate                                             school become more
  25       C0109                          95,043   doors, and provided
                     school for                                               conducive to
                                                   student furniture. Met
                     boys.                                                    learning.
                                                   expectations.
                     Add 4 new                     Constructed 4
                     classrooms                    classrooms complete
                     and cast the                  with plumbing and          Project made school
  26       C0120     yard with            59,848   electrical work, and       more conducive to
                     concrete at                   cast yard with             learning.
                     coed primary                  concrete. Work was
                     school.                       acceptable to users.

                     Spread road                   Performed work
                                                                              Project facilitated
                     subbase for 3                 according to
  27       C0107                          82,875                              commuting to
                     kilometers in                 specifications and met
                                                                              surrounding areas.
                     village.                      expectations.




                                                                                                    35
                                                                                           Appendix V


Sampled    Project       Project
                                         Cost ($)         Conclusion                    Impact
 Project   Number      Description
                     Construct 6
                                                     Constructed 6
                     new
                                                     classrooms and
                     classrooms
                                                     rehabilitated 2             Project made school
                     and new
  28       C0157                          156,715    bathrooms in                more conducive to
                     bathrooms,
                                                     accordance with bill of     learning.
                     and
                                                     quantities and to
                     rehabilitation of
                                                     users’ satisfaction.
                     primary school.

                                                     Completed paving in
                     Pave 600                                                    Project facilitated
                                                     accordance with bill of
  29       C0201     meters of              55,860                               commuting to
                                                     quantities and to
                     village streets.                                            surrounding areas.
                                                     users’ satisfaction.

                                                     Installed pipes,
                     Establish                       valves, and manholes        Project provided
  30       C0393     drinking water         60,000   according to bill of        village with drinking
                     pipe for village.               quantities and met          water.
                                                     expectations.
                                                     Completed work in
                     Spread 7                        accordance with the         Project facilitated
  31       C0154     kilometers of        152,250    bill of quantities and to   commuting to
                     road subbase.                   the satisfaction of         surrounding areas.
                                                     users.

                                                     Completed work in
                     Spread 5                                                    Project facilitated
                                                     accordance with bill of
  32       C0181     kilometers of        135,000                                commuting to
                                                     quantities and to
                     road subbase.                                               surrounding areas.
                                                     users’ satisfaction.
                                                     Completed
                                                     construction of 4 new
                                                     classrooms, along
                     Construct 4                     with plastering, tiling,    Project made school
  33       C0207     classrooms in          77,833   steel doors, electric       more conducive to
                     primary school.                 work, and windows, in       learning.
                                                     accordance with the
                                                     bill of quantities and to
                                                     users’ satisfaction.
                                                     Completed in
                     Renovate
                                                     accordance with bill of
                     primary coed
                                                     quantities except the
                     school and                                                  Project made school
                                                     installation of a
  34       C0322     supply student         13,892                               more conducive to
                                                     window air-
                     furniture and                                               learning.
                                                     conditioner, which
                     office
                                                     was substandard
                     equipment.
                                                     work.




                                                                                                         36
                                                                                         Appendix V


Sampled    Project      Project
                                       Cost ($)         Conclusion                    Impact
 Project   Number     Description
                                                   Supplied student
                     Supply student
                                                   desks, cooler, file
                     computer
                                                   cabinet, office             Project made school
                     laboratory and
  35       C0453                           8,745   furniture, and chairs in    more conducive to
                     office
                                                   accordance with the         learning.
                     equipment to
                                                   bill of quantities and to
                     high school.
                                                   users’ satisfaction.
                                                   Completed road
                     Spread 1.6                                                Project facilitated
                                                   construction in
                     kilometers of                                             commuting to and
  36       C0417                          25,920   accordance with bill of
                     road subbase                                              from surrounding
                                                   quantities and met
                     in village.                                               areas.
                                                   expectations.
                                                                               Project did not have
                     Supply student                Supplied student            the desired impact,
                     furniture and                 furniture and office        and administrators
  37       C0512     office               12,725   equipment in                expressed
                     equipment for                 accordance with the         dissatisfaction with
                     primary school.               bill of quantities.         substandard student
                                                                               desks.
                     Construct 2
                                                   Completed work, but
                     classrooms                                                Except for the item
                                                   work was less than
                     and complete                                              noted, in general,
  38       C0087                          90,993   acceptable as the roof
                     rehabilitation                                            project met the
                                                   of one classroom
                     for mixed                                                 expectations.
                                                   leaked.
                     primary school.
                                                   Completed in
                     Spread 5                      accordance with the
                     kilometers of                 bill of quantities and to   Project facilitated
  39       C0168     road subbase       110,000    users’ satisfaction.        commuting to
                     that connects                 Project costs were 10       surrounding areas.
                     two villages.                 percent over market
                                                   price.
                                                   Completed
                                                   construction in
                     Spread 3
                                                   accordance with the         Project facilitated
                     kilometers of
  40       C0169                          60,000   bill of quantities, but     commuting to
                     road subbase
                                                   project costs were 10       surrounding areas.
                     in a village.
                                                   percent over market
                                                   price.
                     Establish
                                                   Completed work in
                     2,000-meter                                               Project provided
                                                   accordance with the
  41       C0226     pipe for             20,000                               drinking water to
                                                   bill of quantities and
                     drinking water                                            village.
                                                   met expectations.
                     for village.
                     Spread and
                     compact 6                     Performed work in
                                                                               Project facilitated
                     kilometers of                 accordance with the
  42       C0304                          60,180                               commuting to
                     road subbase                  bill of quantities and
                                                                               surrounding areas.
                     in                            met expectations.
                     neighborhood.




                                                                                                     37
                                                                                            Appendix V


Sampled    Project      Project
                                          Cost ($)         Conclusion                    Impact
 Project   Number     Description
                                                      Completed
                     Construct 3
                                                      construction of 3
                     classrooms for                                               Project made school
                                                      classrooms in
  43       C0359     coed                    37,500                               more conducive to
                                                      accordance with the
                     intermediate                                                 learning.
                                                      bill of quantities and
                     school.
                                                      met expectations.
                                                      Completed work
                     Rehabilitate                                                 Project made school
                                                      according to the bill of
  44       C0135     primary coed            75,881                               more conducive to
                                                      quantities and met
                     school.                                                      learning.
                                                      expectations.
                                                      Supplied equipment
                                                      costing $57,615
                                                      according to bill of
                                                                                  Project expanded
                     Supply health                    quantities and met
                                                                                  the health center’s
                     center with                      expectations. A
           C0162                                                                  capacity and
  45                 medical and             72,325   different supply of
           A-B                                                                    improved the quality
                     office                           equipment costing
                                                                                  of services available
                     equipment.                       $14,710 (C0162A)
                                                                                  to residents.
                                                      was overcharged by
                                                      $8,560 for items not
                                                      delivered.
                     Renovate and
                     expand                                                       Project helped
                     kindergarten,                    Completed renovation        kindergarten
                     add new                          in accordance with the      management provide
  46       C0133                             68,847
                     classroom, and                   bill of quantities and      children with care
                     supply play                      met expectations.           and opportunities for
                     equipment and                                                learning.
                     games.
                     Construct 4
                                                      Completed
                     new                                                          Project helped
                                                      construction in
                     classrooms                                                   school become more
  47       C0205                             83,391   accordance with the
                     and bathrooms                                                conducive to
                                                      bill of quantities and
                     in primary                                                   learning.
                                                      met expectations.
                     school.
                                                      Completed
                     Add 8 new                        construction of 8 new
                     rooms and                        rooms at health center
                                                                                  New facility provided
  48       C0001     supply medical          62,751   after 2 years. (Project
                                                                                  services to residents.
                     equipment for                    started under prior
                     health center.                   Community Action
                                                      Program.)
                                                      Completed work in
                     Pave 1                           accordance with the         Project facilitated
  49       C0191     kilometer of            89,140   bill of quantities and to   commuting to
                     street                           the satisfaction of         surrounding areas.
                                                      users.
                     Supply and                                                   Project contributed
                                                      Completed work in
                     install electrical                                           to improved farming
                                                      accordance with the
  50       C0186     irrigation pump         23,058                               and the farm
                                                      bill of quantities and
                     with pipes in                                                economy in the
                                                      met expectations.
                     village.                                                     village.




                                                                                                        38
                                                                                   Appendix V


Sampled    Project       Project
                                     Cost ($)         Conclusion                Impact
 Project   Number      Description
                     Build new
                     bathrooms and
                                                 Completed work in         Project helped
                     rehabilitate
                                                 accordance with bill of   school become more
  51       C0043     teachers’          29,980
                                                 quantities and met        conducive to
                     bathrooms at
                                                 expectations.             learning
                     secondary
                     school.
                           Total =   2,652,113




                                                                                            39
                                                                                Appendix VI


                    Analysis of Eight Indicators Used by
                   International Relief and Development

   Indicator           Issues
                       (1) IRD quarterly programmatic report issued at the end of Year 2
                       used a different indicator wording (priority community infrastructure
                       and supply projects) than the Year 2 work plan.
  Number of
                       (2) End-of-Year 2 report did not report against targets for Year 2 or
1 community projects
                       baselines.
  completed
                       (3) IRD’s reported results in the end-of-Year 2 report (439 projects)
                       differed from the Project Data Table (368 projects) used by IRD and
                       the AOTR.
                       (1) This being a percentage, the numerator is number of projects
                       receiving community contribution, and the denominator is the total
                       number of projects implemented. Since it is expressed in
                       percentage, the value will be less than or equal to 100.‖ However,
                       IRD reported a percentage over 100 percent.
  Number of projects
                       (2) According to IRD officials, there were 12 projects without
  with community
                       community cost sharing, indicating that the reported result of over
  cost share as a
                       100 percent was overstated.
2 percent of total
                       (3) The reported result of 524 in the end-of-Year 2 report does not
  number of projects
                       reconcile with the table of the status of projects in the same
  implemented
                       document. In addition, the denominator (total number of projects
  (Cumulative)
                       implemented) incorrectly used the target number of 500.
                       (4) The reported total of 524 does not agree with Project Data Table,
                       which shows 502 (101%). The provided Project Data Table was
                       dated about 1 month later than the end-of-Year 2 report.
                       (5) The baseline and target in the Project Data Table were the same.
                       (1) This being a percentage, the numerator is number of projects
                       approved with Government of Iraq cost-share and the denominator
                       is the total number of projects implemented. Again the value will be
                       less than or equal to 100.‖ However, IRD reported a percentage
                       over 100 percent.
  Number of projects   (2) According to IRD officials, there were 4 projects without
  with Government of   Government of Iraq cost sharing, indicating that the reported result
  Iraq cost share as   of over 100 percent was overstated.
3
  a percent of total   (3) The reported result of 531 in the end-of-Year 2 report does not
  number of projects   reconcile with the table of the status of projects in the same
  implemented          document. In addition, the denominator (total number of projects
                       implemented) incorrectly used the target number of 500.
                       (4) The reported total of 531 does not agree with the Project Data
                       Table, which shows 510 (102%). The provided Project Data Table
                       was dated about 1 month later than the end-of-Year 2 report.
                       (5) The baseline and target in the Project Data Table were the same.




                                                                                          40
                                                                                  Appendix VI



   Indicator            Issues
                        (1) Baseline and life of project target values are the same in the
                        Year 2 work plan.
  Community Action
                        (2) No end-of-Year 2 results were reported.
4 Group members
                        (3) Year 2 and Year 3 work plan definitions are different. The Year 3
  trained
                        work plan added community members to members of community
                        action groups (CAGs) to derive the reported result.
  Number of Local       (1) No end-of-Year 2 results were reported.
5 Government            (2) Baseline values in the Year 2 work plan and PMP are not
  Councils trained      defined.
  Number and
  percent of CAP III-   (1) The end-of-Year 2 results were measured differently from the
  assisted Nahiya       indicator definition. This indicates that the activity was not being
  and Qada councils     conducted, although expected by the PMP and the Year 2 work plan.
  that have             (2) Year 2 results reflected a changed wording of the indicator, from
  implemented a         ―councils implementing a community-driven needs assessment‖ to
6 formal community-     ―including a community-driven needs assessment.‖
  driven needs          (3) The wording of the indicator in the Project Data Table did not
  assessment,           feature ―implementing‖ or ―including‖ but ―formalized.‖
  project design, and   (4) PMP has the word ―formal‖ before community-driven needs
  implementation        assessment, but this word does not appear in subsequent
  process into their    documents.
  work.
                        (1) Baseline and target values are the same in the Year 2 work plan.
  Number of USG-        (2) According to IRD’s chief of party, advocacy is measured by CAG
  assisted civil        member approval of projects, and watchdog functions are measured
  society               by CAG members monitoring the implementation of the projects.
  organizations that    (3) Indicator essentially measures CAG formation. Indicator does not
7 engage in             differentiate expected performance and results from other indicators.
  advocacy and          (4) According to the chief of party, the result would be 115, but this
  watchdog functions    indicator is measured by the number of CAGs formed with at least
  (CAGs providing       one project completed. Because 9 neighborhoods did not have a
  project oversight)    project completed, the result was 106, not 115. This is less than the
                        target of 121.
                        (1) According to the IRD chief of party, this indicator is measured by
  Number of local
                        the number of CAGs formed with at least one project completed.
  mechanisms
                        Nine neighborhoods did not have a project. However, IRD reported
  supported by USG
                        117 in its Year 3 work plan. This is less than the target of 121 in
8 assistance for
                        Year 2 work plan.
  citizens to engage
                        (2) The unit of measure is supposed to be the number of local
  their subnational
                        mechanisms, but it was reported as number of CAGs with at least
  government
                        one project completed.




                                                                                            41
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel.: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
